 -j
.. "'     ,."




                            ITINERANT SURGERY





            .. Sf.J.V'Cl"




                ""3a


        OFFICE OF INSPECTOR GENERAL
        OFFICE OF ANALYSIS AND INSPECTIONS
                                                 APRIL 1989
                                                                                                 - ",




                          OFFICE OF INSPECTOR GENERAL
The mission of the Offce of Inspector General (OIG) is to promote the efficiency, effective­
ness and integrty of program in the United States Deparent of Health and Human Services
(HS). It does ths by developing methods to detect and     prevent frud, waste, and abuse.
Create by statute in 1976, the Inspector Genera keeps both the Secretar and the Congrss
fuly and curntly inormed about program or management problems and recommends cor­
rective action. The OIG performs its mision by conductig audits, investigations, and inspec­
tions with approximately 1, 200 sta strategically located around the countr.


                      OFFICE OF ANALYSIS AND INSPECTIONS
Ths report is produced by the Office of Analysis and Inspections (0Al, one of the thee
major offces within the OIG. The other two ar the Offce of Audit and the Office of Inves­
tigations. Inspections ar conducted in accordance with professional standar developed
OAl These inspections ar tyicaly short-term studies designed to determe         program effec­
tiveness, effciency, and vuerabilty to fraud or abuse.

Th study was conducted to determe quality of car issues related to itierat surgery and
Medicare made overpayments to itinerat   surgeons for   servces not provided.

The report was prepard under the diction of Don McLaughli , the Regional Inspector
General of Region VI , Office of Analysis and Inspections. Parcipating in this project were
the followig people:


Kansas                                      Headquarters
Tun Dold 
   (Project Leader)               Bar Steeley
Phil 0 ' Har                                Kitty Ahern
Deborah Walden                              Mar Hogan
James Wolf
Alicia Smith
                    ITINERANT SURGERY





                         Richard P. Kusserow
                         INSPECTOR GENERAL




OAI-07 -88- 00850                              APRIL 1989
                                  EXECUTIVE SUMMARY

OBJECTIVES

This inspection report focuses on issues involving itie ant surgery. The overall objective of
the inspection was to determne:

      the extent of itinerant surgery in rual   hospitals;


      the extent to which qualty of   car is affected by     itinerant surgery; and

      the extent to which itierant   surgeons bil global fees    that include postoperative care
      they did not provide.

BACKGROUND

Itinerant surgery is defmed in this inspection as the practice by a physician (normally residing
in another city) of traveling to smal ru    hospitals to perform surgery. The surgeon typically
is not available for follow-up care, havig trveled to another rural hospita or returned to his
or her home base all in the same day. The American College of Surgeons wil and have ex­
cluded physicians from fellowship for performng itinerat surgery. However, medical
opinions var greatly regardig the necessity and ethics of itinerat surgery and its effect on
the quality of patient car.

METHODOLOGY

A random sample of 72 hospitals was selected from the universe of 1, 328 rura hospitals with
50 beds or fewer. We then determned which of the sample hospitals used the services of
itierant surgeons. Medicare beneficiares ' admssion records in the 20 hospitals which util­
ized itierat surgeons, durng October 1 , 1985 though September 30, 1986, were screened
for the 12 most frequently reported surgical diagnosis related groups (DRGs) in rural hospi­
tals. All surgeries in those DRGs at the sample hospitas were selected for review. Contact
with the hospitas determed if local or itinerat surgeons had performed the surgeries in
question.

Reimbursement was analyzed by comparng documentation in the medical records to the bil­
ing and payment informtion frm Medicar payment histories. The medical records were
then reviewed by a medical review contractor to assess quality of care. Contacts were made
with severa organizations, including the American College of Surgeons, the American Medi­
cal Association , the American Academy of Family Physicians, peer review organizations
(PROs), and State medical licensure boards, to obtain their views on itinerant surgery.
FINDINGS

Some Rural Hospitals Make Extensive Use Of Itinerant Surgery

     Twenty-eight percent (20 of 72) of the sampled rual hospitals utilized itinerant
     surgeons. Itinerat surgeons performed 73 percent (177 of 242) of the sample cases
     which were selected from the 12 most common surgeries in the sampled rural facilities.

Many Rural Hospitals See Itinerant Surgery As A Cost-effective Means Of Providing
Needed Surgery Which Might Not Otherwise Be Available In Some Rural Areas

Nevertheless, There Is A Higher-than-average Risk Of Poor Quality Care In Itinerant
Surgery

     Physicians under contract to the Offce of Inspector General (OIG) identified 29 cases
     (16.3 percent) with adverse outcomes. In 10 of these cases, the adverse outcome was
     aggravated by itierant surgery.



     Contract physicians found that 123 (70 percent) of the cases reviewed were elective
     surgeries. Furer, 8 percent of those elective surgeries were found to be
    . contraidicated.

     Contract physicians identified 41 cases in which a surgical note was not present before
     anesthesia. In 10 cases where notes were present, the notes were not adequate. The
     review also identied 29 cases where the preoperative workup was not adequate.

     The overall rate of poor quality care in this study was determned to be 26. 6 percent. In
     comparson , the National DRG Validation Study completed by the OIG found a 3.3
     percent rate of poor quality care in surgical cases in smal rural hospitals.

Medicare Pays Many Itinerant Surgeons For Postoperative Care Which Is Not Performed

     Review of medical records and payment histories found that, in 113 of 177 (63.
     percent) of the records reviewed, the itinerant surgeons did not provide postoperative
     care. However, they biled the Medicare program. a global fee which included this care.
RECOMMENDATIONS

To Improve The Quality Of Care In Itinerant Surgery Cases

     Rural physicians and hospital admnistrators should develop and monitor
     implementation of procedures to ensure adequacy of:

             preoperative workups;
             the patient s opportnity to seek a second opinion;
             postoperative plans of care; and
             postoperative communication between the attending physician and the itinerant
             surgeon.

     The Health Care Financing Admistrtion (HCF A) should require that PROs review
     procedures performed by itinerant surgeons to determne if the qualty of patient care is
     afected when preoperative or postoperative car is not provided by the itinerant
     surgeon. Parcular attention should be paid to adverse outcomes related to itinerant
     surgery .


To Recover And Reduce Overpayments For Postoperative Care Billed, But Not Performed
By, Itinerant Surgeons

     The HCF A should instrct Medicare carers to recover overpayments from itinerant
     surgeons identied in this study who biled a global fee but did not provide
     postoperative car.



     The HCFA should instrct all carers to use proedur code modifier " 54" to eliminate
     Medicare overpayments in cases where itinerant surgeons provided surgery only. The
     HCFA should instrct all carers to educate surgeons regarding the use of the " 54"
     modier.

     The HCF A should develop guidelines regarding the percentage allocation of global fees
     for surgery and postoperative care. These guidelines would provide criteria for
     consistent claims adjudication , and should be dissemiated nationwide.

AGENCY COMMENTS

The HCFA comments reflect general agreement with the findings and recommendations in
this report. The OIG is pleased that HCFA is takng action to implement the maj"rity of these
recommendations. However, HCFA did not agre with the recommendation that PROs should
review itinerant surgery procedures because such a review would require a new review proce­
dure, and itinerant surgeons cannot be identied from non- itinerant surgeons. Although we
recognize the efforts expended by PROs, we believe that a review of itinerant surgeries should
not requir an extensive revision of procedures since the scope of work currently includes
rual hospitals, and local PROs should be aware of itinerat surgeons in their service area.


HEALTH ORGANIZATION COMMENTS

The OIG issued the draft report to six health organzations for comments, of which two (the
American Hospita Association and the American Academy of Famy Physicians) responded.
In general, both organzations were in agreement with the majority of the report recommenda­
tions. However, these organizations also shard a concern that the conclusions in the report
were reached from a small sample of surgical cases. The sampling process, as in all inspec­
tions, is approved by GIG statistical sta to ensur accuracy and consistency of the inspection
process. The fidings from this study were based on the analysis of data drawn from valid ran­
dom samples.
                                ............................. ....
                                ..............................
                              ..............                       ........
                                                               ................
                                                                ........
                                             ................ ....... ...........
                                                                          ......  .................
                                                                              ......................
                                                                                  ........
                                                                                  ..................
                                                                           ...........
                                                                       ......          ..............
                                                                              ............           ................
                                                                                                       .............
                                                                                           ..............
                                                                                                       ...
                                                                                           ... ......... ... .... ... .................
                                                                                                                     ..................
                                                                                                          .....................
                                                                                                                  ...............




                                             TABLE OF CONTENTS



EXECUTIVE SUMMARY

INTRODUCTION .. ............ .................. ...........                                                                           II.... 1

      o BJ ECTIVES ............. .... ............ .....                                                                            .....811 1
      BAcKG ROU N D .
        ETHODOLOG Y ............. ............... ...... ...

FINDI NGS .......... ......                                                                                ......... ....... ... .......11   a.. 6


RECOMMENDATIONS AND AGENCY cOMMENTS.........................................


APPENDICES .... ........                                                                              .......................... It...... .

                                         INTRODUCTION


OBJECTIVES

Ths national inspection focuses on issues involving the quality of care related to inpatient
itierant surgery, and on Medicare progr overpayments to itinerat surgeons for postopera­
tive s ervices not provided. The overal objective of the inspection was to determne:



         the frequency of itierat surgery;

         the extent to which a physician other than the itierant   surgeon provides preoperative
         and/or postoperative care;

         the extent to which the qualty of car is affected by the surgeon s absence;

         if itierant surgeons ar biling global fees which include postoperative car    they   did not
         provide;

         Medicare carer   procedures and   policies regarding global fees; and

         the amount of Medicare program overpayments resulting from payments of global fees
         biled by itinerat surgeons for services not provided.


BACKGROUND

Itinerant surgery is defined in this inspection as the practice by a physician (normally residing
in another city) of travellig to small rual hospitals to perform surgery. The surgeon typically
is not available for follow-up care, havig trveled to another      ru  hospita or retured to his
or her home base all in the same day. In most of these cases, preoperative and postoperative
care is performed by the patient s local attndig physician rather than the itinerant surgeon.

Itierant surgery   occur in smal    ru  hospitals for severa reasons. A hospital may not have
local surgeon, yet surgical patients prefer to be hospitaized in their local hospital. Where
           ocal surgeon , he or she is usually a general surgeon. A surgical specialist (e.
there is a 


urologist or' orthopedist) may be required for other than general surgery. This specialist would
tyicaly be an itinerat surgeon , even if resident in a rura area, since small hospitals cannot
support a specialst on a full- time basis.

Usually, an attendig           admts a patient and is responsible for the care the patient
                        physician
receives. When surgery is required, a surgeon consults with the attendig physician , examines
the patient, performs the surgery, and provides surgical aftercare, such as ordering antibiotics,
fluid replacement, and the type and frequency of dressing changes.
As mentioned above, some small rual       hospitals do not have a patient population large enough
to support general and/or specialized surgeons, so surgery is often performed by an itinerant
surgeon. Whether an itinerat surgeon performs all or pan of the preoperative or postopera­
tive care, or shares that care with the attendig physician, depends on the surgeon and can
var from case     to case. This practice raises concerns regarding the                quality of care rural
Medicare patients receive and whether Medicare payments to itinerant surgeons cover services
not provided.

Medical opinions var greatly regarding the necessity and ethics of itinerant surgery and its ef­
fect on the qualty of patient care. Medical jourals have included arcles about itinerant
surgery which question whether surgery should be performed by an itierant surgeon if the
operation cares with it a signcant risk; or whether itinerat surgery is ethical because a sur­
geon abandons the patient s postoperative car and tus it over to another physician.

Severa organizations contacted durg the coure of this inspection , including the American
College of Surgeons (ACS), have wrtten                     guidelies and/or   set a policy regarding itinerant
surgery. The ACS prohibits its members from performng itinerant surgery. Their bylaws
state that it is unethical to    tu
                                over the postoperative care of a patient to another physician
who is not as well qualified to undertake it. A fiding that itinerat surgery was performed
may lead to a member s expulsion by the ACS Board of Regents. In one specifc case, the
ACS excluded a physician from fellowship because he performed itinerant surgery.

On the other hand, a representative of the American Medical Association stated that itinerant
surgery is an " accepted and necessar " practice. A representative of the American Academy of
Famy Physicians stated that itierant surgery can represent quality medical care if the follow­
ing crteria are met:



         The surgeon is competent to provide surgery;

         the surgeon and the attending physician enter into a defied                agreement regarding       the
         provision of aftercar;



         services are provided in a competent hospital; and

         there is adequate postoperative communication between the surgeon and the attending
         physician.

Surgical procedure codes used by physicians in billng                  for medical/surgical procedures are
listed in the   Physicians   ' Current Procedural Terminology             (CPT) Manual and ar similar to            the
Health Care Financing Admnistrtion (HCFA)     Common Procedure Coding System (HCPCS).
The HCPCS codes for surgery provide a " global allowance " for surgical procedures and un­
complicated postoperative care. In instances when only a portion of the global service is per­
formed (i.e., surgery only), a procedure code with a two- digit modifer provides the means
which the physician can indicate when the scope of a surgical procedure has been altered. The
CPT modier "        " used with the procedure code, indicates that the surgeon performed only
the surgery and did not provide postoperative car. The HCFA guidelines require that al car­
riers be able to accept clais biled with a five- digit HCPCS code and up to two modifiers.
However, carers may elect not to use the modiers for pricing or profiing puroses.
Medicare progr overpayments may result when surgeons do not provide postoperative care
and submit bils using a procedure code without a modier. Overpayments may also result
with proper bilgs using modiers for surgery only if the carer payment system does not
recognize the modier and pays for a global servce.

METHODOLOGY

The inspection methodology was completed in the following steps. (See appendi I for out­
line. ) First, a random sample of72 hospitas was selected from the universe of 1 328 rural
hospitals of 50 beds or fewer which were located in aras outside Metropolitan Statistical
Areas as defmed by the Census Bureau. Second, the hospitals in the sample were contacted to
determe if itierant surgeries                                    In 11 of the 72 hospitals
                                were performed in those facilties.
(15 percent), no surgery was performed. Forty-one hospitals (57 percent) used only local staff
surgeons. Itinerat surgeries were performed in the remaining 20 hospitals (28 percent) lo­
cated in 14 States.





                                          Figure 1

                              72 SAMPLED RURAL HOSPITALS

                                                                     SURGEONS BY LOCAL
                                                                     SURGEONS (41 Hospitals)


                                                                     NO SURGERY
                                                                     PERFORMED (11 Hospitals)


                                                                     ITINERANT SURGERY
                                                                     PERFORMED (20 Hospitals)




       15.

Third, Medicar beneficiares ' admssion records in the 20 hospitals, durng the period
October 1, 1985 though September 30, 1986, were screened for the following 12 most fre­
quently reported surgical diagnosis related groups (DRGs) in rual hospitals:

      DRG                        Description
                                 Extr Craal Vascular Procedures
                                 Lens Procedurs
      148                        Major Smal and Large Bowel Procedures
      154                        Stomach, Esophageal, Duodenal Procedures
      157                        Anal Procedurs
      161                        Ingunal and Femoral Hernia   Repai
      197                        Total Cholecystectomy
      209                        Major Joint Procedurs
      210                        Hip and Femur (Except Major Joint) Procedures
      257                        Total Mastectomy, Malignancy
      310                        Transurthal Procedures
      336                        Transurthal Prostatectomy


A tota of 243 surgical admssions of Medicare beneficiares in the 20 hospitals was selected
initially as the sample for this inspection. One hospita was dropped from the inspection be­
cause it had only one identied admssion in that hospita and in that parcular Medicare
carer s ara.
Four, the review team identied, though discussions with hospital sta       and review   of medi­
cal records, that 177 of the remaing242 surgeries were performed by itinerat surgeons.
found that over hal         surgeries were performed by itinerat surgeons in the surgical
                      of these
specialties of ophthalology, urology, and ortopedics. The remaining 65 surgeries were per­
formed by local attendig physicians (30 cases) or by local surgeons (35 cases).

The Office of Inspector General (GIG) contracted with the Forensic Medical Advisory Service
of Rockvlle, Marland, to perfonn a qualty of care review of the 177 sampled itierant
surgery records. The OIG specifed that the contrctor provide medical review and wrtten as­
sessment of the quality of car of servces provided to patients trated by itierant surgeons
identied in the sample.

The 177 medical records were examned to determne if they reflected problems related to an
acceptable quality of care, and the extent of preoperative and postoperative sel"vices provided
by the itierant surgeon. The scope of review did not include a review of patient visits, if any,
to the surgeon s office after the hospital discharge. Qualty of car could involve varous
aspects of surgery and include quality of the surgery, complications following surgery, and the
provision of preoperative and/or postoperative care by the surgeon, as documented in the
medical record.

Since the 177 medical records included severa types of surgery, the contrctor used board­
certfied physician reviewers who included general surgeons and also specialty surgeons who
reviewed cases in their respective specialties. The physician reviewers, using professional
judgment, completed a narative    summar and an abstraction of data elements on each of the
177 cases. A list of the data elements is included as appendi II.

Beneficiar payment    histories for the 177 itinerant surgery admissions were obtained from
Medicare carers. The HCFA guidelines provide for payment of a global fee to the surgeon
for the surgical procedure and postoperative care unless postoperative care is not provided.
Medicare progr overpayments were calculated for cases in which it was determined that the
surgeon provided no postoperative car, yet biled the Medicare program a global fee. The
respective carer guidelies were used in calculatig Medicare program overpayments. The
carers vared in the number of postoperative days included in the global fee; however, the
most frquent period was 14   days. See appendi III for   details.


Discussions were held with itinerat   surgeons, attending physicians, hospital administrators,
surgeons billg offices, State medical boards, and peer review organizations (PROs) in the
States where on-site hospital visits were made. Several health organizations were contacted to
obtain views regardig itinerant surgery as it relates to qualty of care.
                                          FINDINGS

Some Rural Hospitals Make Extensive Use Of Itinerant Surgery

Twenty-eight percent (20 of 72) of the sampled rural hospitals utilized an itinerant surgeon.
Itierant surgeons performed 73 percent of the sample cases (177 of 242) covering the 12
most common surgeries in the sampled    ru  facilities. The 177 surgeries were performed by
43 itinerat surgeons.




                                ITINERANT SURGERY SAMPLE

                  No. of        Total              Surgery Performed by             No. of Itinerant
  Hospital        Beds          Cases         Local Surgeon     Itinerant Surgeon    Surgeons




   TOTALS                       242                                  177


Durg intervews with 11 of the 43 itinerant surgeons, we found that 5 of the 11 were from
cities with a population greater than 50, 000 and were specialists (such as orthopedic sur­
geons). Six of the 11 itinerat surgeons were from small cities (less than 25, 000 population)
or towns similar in size to the towns where itinerant surgery occurred, and were usually
general surgeons.



Many Rural Hospitals See Itinerant Surgery As A Cost-effective Means Of Providing
Needed Surgery Which Might Not Otherwise Be Available In Some Rural Areas

The practice of itinerant surgery in a rural hospita is perceived to have a beneficial impact on
the hospital, the community, local physicians, and patients.
....---.....---- ._.. __.   _._     ---- '----   -   . -.   -- ----. ..        -.---
                                                                          ---- -
                                                                                       _.n




           Rural Medicare patients feel they can benefit from itinerat surgery. By having surgery at the
           local hospital, the patient is not subjected to the truma of going to an unfamiliar hospital and
           the associated problem of transportation to the hospita for the patient, his or her famly and
           frends.

           The local attendig physician also benefits from itinerant surgery. Because his or her patients
           are able to have surgery at the local hospita rather than transferrng to another hospital, the at­
           tendig physician can provide daiy medical care which, in many cases, could not be done if
           the patient had to be sent to another city for surgical care.

           From the rual            point of view, itierant surgery enables the hospital to keep surgical
                                  hospital' s
           patients, thereby improving occupancy and hospita income. Since many rual hospitals are
           the pri      employer in the communty, itierant surgery can also indiectly effect the employ­
           ment of community residents.

           We intervewed itinerant surgeons, attending physicians, and hospital admnistrators from
           ru  communities. Some of their opinons regardig itinerant surgery follow:

                  Itierat surgery  is vital to the surval of rual hospitals and rural communities who
                  fear that referrg patients to larger hospitals means losing them forever;

                  without itinerat surgery, the                       quality of rual        medicine   would suffer;

                  itinerant surgery performed localy costs less, while maintaining the same quality as
                  surgeries performed in larger hospitas; and

                  surgery performed locally alows patients to remain close to their friends and family,
                  elimnating the social and economic problems associated with transferrng to a hospital
                  outside the community.

           In summar, itierant surgery provides a needed service to local physicians, the rural hospi­
            tals, patients, and residents of rual                         communities.


           Nevertheless, There Is A Higher- than-average Risk Of Poor "Quality                                   Care In Itinerant
           Surgery

            Contract physicians identified problems related to the quality of car associated with itinerant

            surgery. The following types of problems were identified within the sample of cases:


                  There were adverse outcomes related to a number of the surgeries, some of which were
                  also aggrvated by itinerant surgery.

                  Properative work-ups were                           inadequate.
     Surgical follow-up was not performed.
Discussion of the more signicant qualty of care issues follows.

Adverse Outcomes Aggravated by Itinerant Surgery

The review determed that 29 of the 177 cases (16.3 percent) had adverse outcomes that were
related to surgery performed by itierant surgeons. In 10 of those cases, the physician
reviewers determed that the adverse outcomes were not only related to the surgery, but were
also aggravated by itinerant surgery. The contract physicians defined " aggravated by itinerant
surgery " to mean that the adverse outcomes were made worse because the surgery was per­
formed by an itierat surgeon who did not provide sufficient medical care before and/or after
surgery. The following are examples of these cases, as described by the physician reviewers:

      An 84- year-old woman had a breast mass biopsied under general anesthesia despite
      multiple medical problems contrndicatig general anesthesia. The surgeon
      preoperative note for the biopsy did not mention her medical problems. She
      subsequently suffered severe postanesthetic complications. Despite these
      complications, and despite the fact that the biopsy was in essence a segmental
      mastectomy (paral breast removal), the surgeon elected to perform a second surgery--a
      modied radical mastectomy--again under general anesthesia. The patient developed
      respiratory distrss and ultiately cardiac arest from which she expired on the third
      postoperative day. The surgeon did not see the patient after either surgery, and, indeed,
      may not have been awar of her near- demise following the biopsy. Both the use of
      general anesthesia and radical surgery in this high-risk patient were contraindicated.

      At discharge 7 days after a cholecystectomy (galbladder removal), a 68- year-old man
      contiued to have bile drage from a drai left in place. The surgeon did not see the
      patient postoperatively, despite the continuing bilous drainage, which could have
      represented injur to the liver bed, the common bile duct, or the cystic duct during
      surgery. The postoperative management was grossly unsatisfactory, since this
      complication required surgical rather than medical management.

      A 73- year-old man had a hernia repair under local anesthesia. There was no indication
      that he was seen postoperatively by the surgeon or the attending physician , and he was
      discharged with the wound stil bleeding. He was readmtted by a third physician 2
      days postoperatively with hemorrhage in the area of the hernia, cellulitis, and jaundice.
      Ths represents unacceptable postoperative care, with complications aggravated by the
      surgeon s inattendance.

In 5 of these 10 cases, the itinerat surgeon did not provide postoperative care. In the
remaining cases, only limited postoperative car was provided. In all 10 cases, postoperative
care, when present, was provided by the patient s attending physician.
Other Adverse Outcomes Related to Surgery

The review also found that the remaiing 19 cases with adverse outcomes were related to the
surgery performed by the itierat surgeons. In 15 of these cases, the surgeon either did not
provide postoperative care or provided only limited postoperative care. The physician
reviewers cited examples of adverse outcomes related to surgery:

         In thee cases, patients had urnar incontinence following resections of the prostate. In
         none of these cases was the patient seen by the surgeon postoperatively, although the
         postoperative complication was related to the surgery.

         The preoperative workup on an 84- year-old woman admtted with abdominal pain was
         inadequate. As a result, the surgeon operated for suspected perforated divertculitis.
         When he did not fid it, he closed the incision, made another, and removed a
         noniamed galbladder. It was inappropriate to remove the gallbladder unnecessarly
         in a high-risk patient. The surgeon faied to either diagnose or treat the acute perforated
         ulcer that caused the admssion.

Inadequate Surgical Notes Before Anesthesia

In 41 cases, a surgical note was not present before anesthesia was admistered to the patient.
The medical review contractor stated that the lack of a surgical note before anesthesia suggests
that the patient had not been seen and evaluated by the itinerat surgeon prior to the ad­
miistration of anesthesia.

In the   remaiing 136  cases, a surgical note before anesthesia was documented in the medical
records. However, in 10 of the 136 cases, the surgical notes before anesthesia were not ade­
quate. In these cases, the surgical notes did not adequately describe an evaluation of the
patient prior to surgery or explain the indications for surgery.

                                            Figure 2

                          SURGICAL NOTES BEFORE ANESTHESIA
                        UNIVERSE OF 177 ITINERANT SURGERY CASES

                                                             1m   PRESENT & ADEQUATE



                                                                  NOT PRESENT




                                                             tZ   PRESENT BUT
                                                                  NOT ADEQUATE
Inadequate Preoperative Workups

The preoperative workup prior to surgery, as reflected in the medical records, was not ade­
quate in 29 cases. In these cases, the evaluations of the patient by the attending physician and
the itinerat   surgeon were both considered. Some of the most common deficiencies reported
were a lack of documentation that certai exams and certain laboratory and radiological tests
were performed. Also, there was insufficient evaluation of a patient s prior medical history to
make a diagnosis.

Contraindicated Surgery

Analysis of data from the physician reviewers found that 123 of the 177 itinerant surgeries (70
percent) were elective surgeres. The reviewers also found that in 10 of those 123 surgical
cases (8 percent), the elective surgery was contraidicated. These 10 surgeries were per­
formed by itierant surgeons in the surgical specialties of urology, ophthalmology, and general
surgery. Thee of these surgical cases were among those with adverse outcomes described
above.

Overall Quality Of Care Was Significantly Worse In These Cases Than In A Random
Sample Of Surgical Cases In Small Rural Hospitals

As discussed above, this study identified a 16) percent rate of adverse outcomes directly re­
lated to itierat surgery. These outcomes were not necessarly indicative of the overall
quality of car rendered durg the hospital stay. In some instanc;es, the adverse outcome
could have been that the patient was known to be a very poor surgical risk who wanted to un­
dergo surgery in any case. On the other hand, cases with poor quality of care overall did not
necessary result in an adverse outcome. No comparable data exists for a related population
(Le., surgical cases in smal      hospitas, performed by local surgeons) to determine if
itierant surgery alone accounts for the adverse outcomes.


However, the OIG has conducted a major analysis of qualty of care, in a random sample of
  050 records from 239 hospitas under the prospective payment system. Furter analysis of
data from ths study, caled the National DRG Validation Study, revealed that 30 surgical cases
had been reviewed which met the crteria established for the itinerant surgery study:

      the cases occurd in rural hospitals with 50 or fewer beds; and

      the surgical procedures involved the 12 DRGs most commonly performed in rural
      hospitals.

The rate of poor quality car in this national validation subsample was 3. 3 percent (1 case' out
of 30). This 3.3 percent, however, is not fully comparble to the 16. 3 percent rate of adverse
outcomes in this itinerant surgery study, as the national validation study measured the overall
quality of car, rather than the outcome alone. In order to compar quality, the OIG medical
officer who examned the qualty summares from the National DRG Validation Study (to en
sure consistency of the reviewers ' judgments) also reviewed the summares wrtten by Foren­
sic Medical Advisory Servce. He applied the same crteria to the itinerant surgery cases that
had been applied in the earlier study. The medical offcer determned that the comparable rate
of poor qualty car in the itierat surgery sample was 26. 6 percent (47 out of 177 cases).
This dierence in rates of poor qualty car (3. 3 percent vs. 26. 6 percent) is statistically sig­
nifcant (Chi-squar = 6. 5, p = 0. 0107; Fisher s exact test, p = 0. 00216). Thus the observed
dierences are highly unlely to be due to chance alone.


                             Figure 3

           RELATIVE RATES OF POOR QUALITY CARE
             NATIONAL DRG VALIDATION STUDY
                        ITINERANT STUDY
                                                                       II   POOR CARE



                                                                       I2
                    VS.
                                                                            GOOD CARE




     96.                                        73.4%




           National DRG Validation Study                    Itinerant Surgery Study
                 Sample size 30                                 Sample size 177



Analysis of information obtained in this review of a sample of records indicates an association
between poor quality of car and itinerant surgery. Although not diectly attbuted to itinerant
surgery, poor quality of care occurd usually with the findings of no preoperative care, no
postoperative car, and/or an adverse outcome with the itinerant surgery cases in this inspec­
tion. Insufficient patient histories, inadequate preoperative workups, and/or no postoperative
care existed in cases aggrvated by itinerant surgery. Itinerant surgeons, in many cases, do not
see their patients prior to the day of surgery and, for this reason, may not receive a complete
picture of the patient s medical history or problems. In addition , preoperative workups may
be inadequate. The fact that many itinerat surgeons provide no postoperative or limited pos­
toperative care may contrbute to postsurgical complications aggravating an adverse outcome.
(See appendix III.

In summar, this comparson indicates that itierant       surgery   may result in poor quality of care
delivered in hospitals that use itinerant surgeons.
Medicare Pays Many Itinerant Surgeons For Postoperative Care Which Is Not Performed

No Postoperative Care by the Surgeon

The review of individual medical records for aftercare by the surgeon focused on written
entres in the record signed by or on behal of the itinerant surgeon. Among the areas
reviewed in each record was the postoperative period, which was defined as beginning the day
after surgery and including al subsequent days unti the day of discharge. Of the 177 medical
records reviewed, 116 contaied no    documented entres of postoperative care by the itinerant
surgeons who performed the surgeries. In these cases, the postoperative care, when present
was provided by the attendig physicians. A breakout of the 116 cases and the number of
days in the postoperative period is shown below.

                  Number of                                  Number of
                  Cases                                      Postoperative Days
                                                               1 to 4
                                                                5 t07
                                                                8 to 10
                                                                11 to 14
                                                                15 or more

Since global fees are intended to cover postoperative care, an analysis was conducted of the
Medicar carer payment histories for those 116 admssions to determne         if the itinerant sur­
geons biled for global fees when, in fact, they had performed surgery only. The carers ' pay­
ment histories reflect that the itierant surgeons were paid a global fee by the Medicare
progr without a surgery-only modier in 113 cases. In the remaining three cases, the
itierant surgeons biled with a surgery-only modifier.



Based on our analysis, 28 of 43 itierat surgeons (65 percent) were overpaid a total of
$15, 387 by Medicar for postoperative car that was biled using a global fee code, but was
not provided. If the Medicar program paid itierat surgeons only for surgery, it could have
saved $289,927 nationaly. The methodology that was used to calculate the program overpay­
ments and savings is outled   in appendix IV.

Limited Postoperative Care By the Surgeon

In 45 cases, itierantsurgeons provided limited postoperative care of at least one day or more
beginning the day after surgery. In 39 cases, the itierant surgeons were paid a global fee. In
the remaiing six cases, the itinerant surgeons biled with a modifier.

The 45 medical records and payment histories were reviewed in the same manner as described
in the previous finding. The number of cases and the identified number of limited postopera­
tive hospital visits are shown below.
                    Number of                Postoperative

                    Cases                     Visits



                                               3 or more

Overpayments were not calculated on the 39 cases where limited postoperative visits were
made because specifc crteria do not exist which would identiy the number of postoperative
visits requird in order to qualy for payment for surgical aftercare.

Use of the Modifier " 54"

Of the 12 carers contacted in this inspection, 10 adjust global fees based on the physician
use of the procedur code moder " " which indicates the surgeon performed only surgery
and did not provide postoperative care. The other two carers do not recognize the modifier
    " and routinely pay global fees (appendix V, column A). Thus, the two carers ' proce­
dures do not alow for adjustments to the global fees.

Variance in Global Fees

There ar   no   HCFA guidelines regarding:

      the number of postoperative days covered by a global fee; and

      the percentage of the global fee alocated for the surgery and for postoperative care.

We contacted the Medicar carers servicing the clais in this inspection regarding global
fees. Of the 12 carers, 4 base the number of postoperative days included in the global fee on
the procedur or tye of surgery performed. The postoperative period covered by the global
fee for the other eight carers vared by tye of surgery and ranged from 10 to 45 days (appen­
di V, column B). The carers also reponed the percentage of the global fee allocated for sur­
gical car and for postoperative car. The alocations ranged from 80/20 to 70/30. The
varance in global fee allocations is shown in appendix V, column C.

Because of the laGk of a common policy covering the number of postoperative days covered
by the global fee and the alocated amounts for a global fee, nationwide varances exist in
program adjustments and/or payments, unrlated to surgical procedurs or practices.
             RECOMMENDATIONS AND AGENCY COMMENTS


Improve The Quality Of Care In Itinerant Surgery Cases

RECOMMNDA nON - Rural           physicians and hospita admnistrtors should      develop and
monitor implementation of procedurs to ensure adequacy of:

     preoperative work:ps
     the patient s opportity to seek a second opinion;
     postoperative plans of care; and
     postoperative communcation between the attending physician and the itinerant surgeon.

AGENCY COlVNTS - The HCFA stated that although this recommendation is not directed
to the PROs, it should be noted that the PROs currently review records to ascertain that care
delivered to Medicar beneficiares in both urban and rual ural settings meets acceptable
standards. This review includes preadmssion/admssion workups and discharge planning.
The HCFA also stated that the patient, ' lie al Medicare beneficiares, can seek a second
opinion under Medicare s voluntar second opinion progrm.

OIGRESPONSE - The OIG supports the PRO' s review of quality of car in rural as well as
urban settgs. However, the ultiate responsibilty for care in hospitals rests on hospital ad­
ministrators and physicians. In the   ru settng, the Medicare patient   s abilty to seek a
second opinion must be faciltated.

RECOMMA nON - The HCFA should requir that PROs review procedures performed
by itinerat surgeons to determne if the qualty of patient care is afected because preopera­
tive or postoperative car is not provided by the surgeon. Parcular attention should be paid
to adverse outcomes related to itinerat surgery.

AGENCY COlVNTS            - The HCFA does not agre with ths recommendation for the follow­
ing reasons: (1) Sufcient data does not exist to perform the analysis necessar to justify
revising the PRO scope of work and implementing a new review procedure. In addition
under the curnt review process, PROs review a significant percentage of hospital admissions
and intensify review where quality problems are identified. Therefore, any patterns of quality
problems with a physician wil be identified and resolved, and (2) " Itinerant " surgeons are not
identied separately from " non- itinerant " surgeons. PROs would not have the means to iden­
tify and focus on these surgeons. Therefore, it would riot be feasible to implement this type of
reVIew.

OIG RESPONSE - We recognize the efforts now expended by PRO' s in their review of rural
as well as urban hospitas. However, because of the joint car being provided by itinerant
surgery, we contiue to believe that a review of all surgeries is waranted. In small hospitals,
''_.-   --""' ' ..,..-. .-   --- ..   -.' . ":::...
                                                      . -i-....   -f-
                                                                          ...
                                                                                ':a.
                                                                                        ':....;.   --",, ­   ' - '" ...--...   :. ''''   ''''
                                                                                                                                                o..
                                                                                                                                                      -".
                                                                                                                                                            ':v.,"_
                                                                                                                                                                      ''' ..:..   : -., ,"..   ..... .-.:...... ,_.. ... .._:" '-. _"   ":--' ,;--",--"   ,-",,, --'




                 it would not be dicult to identiy though hospital admstration those surgeons who prac­
                 tice itierant surgery. Also, miimal new review procedure should be required, and local
                 PROs should be awar of itierant surgeons in their service area.

                 Recover And Reduce Medicare Overpayments For Postoperative Care Biled But Not Per­
                formed By Itinerant Surgeons

                 RECOIvNDA TION - The HCFA should instrct Medicar carers to recover overpay­
                 ments from itierat surgeons                                            identied in this study who biled a global fee but did not
                 provide postoperative care.

                 AGENCY COMrNTS - The HCFA agred that overpayments should be recovered where
                 payment was made for servces that were not performed. HCFA stated that each afected car­
                 rier wi be so instrcted.



                 tive care.
                 OIG RESPONSE - The OIG wil proVide a list to HCFA of each affected carer and the
                 respective names of itierat surgeons who biled a global fee but did not provide postopera­


                 RECOIvNDATION - The HCFA should instrct all carers to require the use of proce­
                 dure code modier " 54" to elimiate Medicar overpayments in cases where itinerant sur­
                 geons provided surgery only. The HCFA should also instrct carers to:

                             educate surgeons                           regardig the use                           of modifiers for itierant                    surgery cases; and

                             identiy rual hospitals                                    that allow itierant
                                                                                                     surgery. All claims for surgery performed in
                             these rual         hospitals by                      itinerant surgeons should be reviewed to determne the extent
                             itierat surgery and                                the bilng of global fees including the use of the modifier " 54.
                             Action should be taken to recover any incorrct payments                                                                        identied.


                 AGENCY COIvNTS                                          - The HCFA agred that the use of modier " 54" is importt in
                 cases where itierant surgeons provide surgery only and they are                                                                              remiding al carers of the
                 use of all CPT- 4               modiers as pan of the 1989 HCFA Common Procedure Coding System up­
                 date.

                 OIG RESPONSE - We ar pleased that HCFA concurs with the importance of modifiers when
                 only a porton of services represented by a global fee are performed , and that HCFA is remind­
                 ing carers of the use of modifiers. However, in their comments, HCFA failed to address the
                 remaining pans of the recommendation. The OIG continues to recommend that HCFA in­
                 strct carf'rs to educate  surgeons regarding the:use of modifiers. In addition, claims for
                 itinerant surgery should be reviewed to detect global fee problems and recover any incorrct
                 payments.
"'-. .   _-,-   "",",.     "'   .. -..-..-. "'.-.   "0_
                                                          ":.._ :.--... ; .--. - ...   g.-"._.....; -. ' -.--:._-"".. --..... . -... -
                                                                                       ._.                                               -.- .:_--..';---- -..- ..-,...   ...- :.--   ....   ...:..-. - "-- ''__..__   ':'-   ....




                         RECOMMNDATION - The HCFA should develop guidelines regardig the percentage al­
                         location of global fees for surgery and postoperative care. These guidelines would provide
                         criteria for consistent claims adjudication, and should be disseminated nationwide.

                         AGENCY COMMNTS - The HCFA stated " As pan of our effort to develop a uniform defini­
                         tion of servces, as required by section 4055(a)(2) of the Omnibus Budget Reconcilation Act
                         of 1987, we ar considerig establishig a uniorm reduction in the global charge where the
                         surgeon does not perform the postoperative car.


                         OIG RESPONSE - We ar             that the HCFA is takng action to identiy mechanisms per­
                                                                                        pleased
                         tinent to implementig this recommendation.

                         RECOMMENDATION - The HCFA should review the issue of limited postoperative care and
                         consider whether policy should be established to determne a minimal level of postoperative
                         care which would justiy payment of a global fee.

                         AGENCY COMMNTS - The HCFA stated that they will consider the need for a minimum
                         standard for postoperative care before a global charge is recognized.

                         OIG RESPONSE - We ar pleased that HCFA' s comments reflect a positive response. We
                         believe a national defIntion of the car which must be rendered to justify postoperative pay­
                         ments is clearly needed.


                         GENERAL                    AGEN.cY                        COMMENTS

                         The HCFA stated that although the OIG provided percentages and several examples to
                         demonstrte poor qualty of care, it did not present the rep rt in a manner which would permit
                         them to fully analyze its results. The HCFA also stated that the meang of the statement " the
                         adverse outcome was aggravated by the itierat surgery " was not explaied. In addition,
                         HCFA suggested that it would be very useful to have the qualty of car problems further
                         defmed by the actual tye of problems and severity. A copy of HCFA' s comments is included
                         in appendi VI.

                         OIG RESPONSE - We appreciate HCFA' s comments regarding the content and presentation
                         of this report. The qualty of care findigs in this report ar based on the results of analysis of
                         itierant surgery cases by the medical review contractor. Their analysis included the use of
                         some descrptive terms, e. cases had adverse outcomes " and " aggravated by itinerat
                         surgery " that descrbed the severity of poor quality of care. The medical contractor was not
                         asked to describe each identified finding by the specific tye of problem. We believe this
                         report includes suffcient descrptions and case examples of poor quality car to support our
                         conclusions.
Health Organization Comments

The OIG issued the draf inspection report on " Itierant Surgery " to six health organizations
for comments, with responses received frm the American Hospita Association and the
American Academy of Famly Physicians. Copies of the comments are included in appendix
VI. The remaing four organizations did not respond. The following is a sumnar of the
commehts received from the American Hospital Association and the American Academy of
Famy Physicians.
The American Hospita Association commented, regardig our sampling methodology, that
broad conclusions were inappropriately drawn frm a small sample and that data from this
study was inappropriately compard to data from an earlier unrlated study. The American
Hospita Association did not agree with the recommendation regarding the PROs review of
itinerant surgery procedures and the recommendation on second opinions for itinerant surgery.
However, the American Hospital Association said on the whole the recommendations in the
report seem quite sensible. Specifcaly, the American Hospita Association agred with the
recommendation that     ru physicians and hospita admnistrtors develop procedurs to en­
sue pre- and postoperative car and to improve communication between the attending
physician and the itierant surgeon. Ths recommendation agrees with a document prepard
by the American Hospita Association called " Guidelines- Creentialing of Outreach Sur­
geons, " which was sent to al Association members durg 1988 and was included as attach­
ment A with the Association comments (see- appendi VI). In addition , the American Hospital
Association is in agreement with the report recommendations dealng with the recovery of
overpayments and instrctions to Medicare carers and physicians regarg the use of
moders for improved       billng procedurs.


The American Academy of Famy Physicians questioned the extent of the quality problems re­
lated to itierat   surgery because   of the smal number of cases reviewed, the absence of a con­
trol grup and medical criteria to suppon judgements, and whether the medcal reviewers
were, in fact, tre   peers of the physicians   being reviewed. .

In genera however, the American Academy of Famy Physicians indicated agrement with
the report recommendations. Their comments, in pan, states that " protocols to assur quality
care and optimal outcomes when outrach surgery is performed should be instituted in
hospitals where these services are performed." The Academy also worked closely with the
American Hospital Association to develop the guidelines contaed in appendi VI of this
report.

In other areas, the American Academy of Famy Physicians supports the education of all the
physicians involved in itinerat surgeryin regard to the use of modfiers. The Academy also
indicated that HCFA should oversee the uniform application of modfier " 54" by all carers in-
eludig the education of physicians regarding the proper use of pertnent moders.

OIG RESPONSE - We appreciate receiving comments to the progr inspection report from
organizations that are so important to medical care tody such as the American Hospital As­
sociation and the American Academy of Famy Physicians.
""   .." .-.......-_... ..,,-    ........        .. " --.. .                           ":'';- .._ -- -_.._   .. -,   ...._ ,---   . :-' ...   ""._..-._- ",...._           "-,,,-,,-,,--, -."".O ;;" .. ""-' ----' '''--''--'
                                                               _a - - Oon... --- _..                                                                               O",_.




                                In their comments both organzations shard a concern that conclusions were reached from a
                                smal sample of surgical cases. The design and methodology for this inspection , as for all
                                program inspections, are approved by OIG statistical staff to ensure accuracy and consistency
                                of the inspection process. The conclusions or findings in this parcular study are based on the
                                analysis of facts and data drawn from vald radom samples.
                                        APPENDIX I


                                  Sampling Methodology

Universe of Hospitals

1328 -       ru hospitas    identied nationwide, 50      beds or fewer, and not located in
             metropolitan statistical areas

Sample of Hospitals

             hospitals selected at random and contacted to determe if itinerant surgery was
             performed in the facilty

             hospitals dropped from sample of 72

                              no surgery was performed in the hospital

                              no itinerant surgeon(s) used or no major surgery was
                              performed in the hospital

             hospitals located in 14 States   identied with at least 1 itinerant surgeon

Admissions

243          adssions identified at the 20 hospitals using the 12 most common surgical
             diagnosis-related groups (DRGs) in rual      hospitals


             admssion dropped from the sample (only case at that hospital and carer)

242	         total number of hospital admission records reviewed to determine frequency of
             itinerant surgery

             records dropped (surgery performed by local surgeon or attending physician)

Itinerant Surgery Cases

177          records of itinerant surgery

             records excluded from furer      review   (itinerant surgeon provided complete
             postoperative care)
Payment Histories

161	       beneficiar payment histories reviewed (from 12 carers) for global fee billngs
           and use of modifier " 54"


           records excluded from furer   review    (itinerant surgeon biled   using a modifier
            54"

Medicare Overpayment

152        global fee paid for no or limted   postoperative care


113	       no postoperative care

           lited postoperative car (not included in overpayment calculation)
...,   _.__ ...__   .._ ..-,.   --
                                     -o- --._ _. ..-: -., . . ,_. ; _ :,..   ,-. _..   ""--,, -:._...." ... .,..   :. '   .._ ._..- __   r__.....
                                                                                                                                                    ",,,""-";..-..-...--" "
                                                                                                                                                                              "'''''_.J_...._
                                                                                                                                                                                                '.._'''.   ---'-   '-_--"




                                                                                                             APPENDIX II

                                                                                                            Data Elements

                                     IDENTIFICATION/DEMOGRAPHIC ELEMENTS

                                      A. Unique Number:


                                      B. HIC Number:


                                      c. Date of Surgery:



                                      D. Age:


                                      E. Race:



                                      F. Sex:



                                      G. Lengt of Stay:

                                                                1. Prop length of stay:

                                      H. Preoperative                        Physician:


                                      1. Surgeon:

                                      J. Postoperative Physician 1:

                                       K. Postoperative Physician 2:
                                      L. Postoperative Physician 3:



                                       M. Discharge Status:

                                                                1. Alive at discharge? 
            (fiN)
                                                                                       a.    Transferred to other hospital? (fiN)
                                                                                       b.    Transferred to swing bed? (fiN)
                                                                                       c.     Transferred to skiled care facilty? (fiN)
                                                                                       d.    Transferred to nursing home? (fiN)
                                                                                       e.    Transferred to other facility? (fiN)
                                                                                             Transferred home? (fiN)

                                                                2. Expired? 
           (fiN)
 ..
. ,--,, '--'   ""''-         -. --'-'---""-;. . "   ..- - .__.   .,-         :.- .__. ....,
                                                                                        g. "'       ''- -_..        ..-. -,-   ...... "'"'-....-   ':-   ,.. :.   :......   ....   ... '-..   ...   ---- ';"".._   . .....




                       II.          QUALITY OF CARE ELEMENTS

                                    A. Preoperative:



                                                            1. Indication for surgery:


                                                                                        a.         Documented? (Y/N)
                                                                                        b.         Valid indication? (Y/N)
                                                                                        c.         Elective? (Y/N)
                                                                                        d.         Contraindication? (Y/N)


                                                                                        Statement of contraidication:

                                                                                              i.   By attending? (Y/N)
                                                                                             n.    By surgeon? (Y/N)
                                                                                        ii.        By other? (Y/N)

                                                            2. Surgical note before anesthesia:


                                                                                        a.         Present? (Y/N)
                                                                                        b.         Adequate? (Y/N)

                                                            3. Surgical                clearce:
                                                                                        a.         Present? (Y/N)
                                                                                        b.         Adequate? (Y/N) .
                                                                                        c.         By attending? (Y/N)
                                                                                        d.         By surgeon? (Y/N)
                                                                                        e.         By other? (Y/N)

                                                            4. Properative workup:

                                                                                        a.         Adequate? (Y/N)
                                                                                        b.         By attending? (Y/N)
                                                                                        c.         By surgeon? (Y/N)
                                                                                        d.         By other? (Y/N)

                                                            5.         Was surgery appropriate to settng?                              (Y/N)

                                     B. Postoperative:



                                                             1. Frequency of surgical follow-up:
                                                                        a. Day of surgery only? (Y/N)
                                                                        b. Day after surgery only? (Y/N)
                                                                                         c.        Approximately once per week? (Y/N)
                                                                                         d.        Approximately twice per week? (Y/N)
                                                                                         e.        Daily? (Y/N)
                                                                                         f.        None? (Y/N)
                                                                                                   Other? (Y/N)
                       g.




          2. Frequency of attendig             follow-up:

                       a.   Day of surgery only? (YIN)
                       b.   Day after surgery only? (YIN)
                       c.   Approximately once per week? (YIN)
                       d.   Approximately twice per week? (YIN)
                       e.   Daily? (YIN)
                       f.   None? (YIN)
                            Other? (YIN)

          3. Adverse   outcome? (Y            IN)
                       a.   Related to surgery? (YIN)
                       b.   Aggravated by itinerant surgery? (YIN)
                       c.   Who responded:
                                    i.   Attending? (YIN)
                               ii.       Surgeon? (YIN)
                             iii.        No one? (YIN)
                               iv.       Other? (YIN)

IlL   Reviewer
      Date Reviewed
                                    APPENDIX II


                     Provider Itinerant Surgery Cases with Findings

             Number of

             Surgeries by
             an Itinerant      No Preoperative   No Postoperative   Adverse   Poor
Provider     Surgeon           Evaluation        Examination        Outcome   Quality




    Totals       177                                 116
 :. - " '




                                              APPENDIX IV


                             Methodology to Calculate Overpayments

A program overpayment of $15, 387 exists for the 113 cases reviewed for the period of the
study where the surgeon biled a global fee and provided no postoperative care. Program
savings of $289, 927 were projected for the nation. These calculations were made as follows:

Program Overpayments


            The global- fee allowable charge on each case was adjusted based on the global- fee split
            used by the applicable carer.   The global- fee  split is a percentage reduction of the
            alowable charge. For example,      a global fee of $100 for only the surgery using a 80/20
            global- fee split would result in an allowable charge of $80, which would be subject to
            the 20 percent coinsurance amount due from the Medicare beneficiar.

            Four carers   stated they used an 80/20 global- fee split, and two carers stated they used
            a 70/30 split. The remaining carers stated they either did not recognize the use of
            modifiers or did not have a global-fee split. For these carers, a split of 80/20 was used
            for calculations.

            Once the allowable charge was adjusted for each case, a new payment amount was
            determned. The overpayment is the difference between the original payment and the
            revised payment amount.

Program Savings

            The national projection of savings is based on a radom sample of 1, 328 rural hospitals.
            The inspection found that itierat surgery is performed in 28 percent of the sample
            hospitals. The projection is computed only on those cases where the itinerant surgegn
            did not provide postoperative care,. but biled a global fee. The projected savings would
            be larger if the cases involving limited postoperative care were included.
                                                   APPENDIX V



                     Carrier Use Of Modifier 	                   54"   And Global Fee Data




                   Use of                        Postoperative                    Global Fee
                   Modifer                       Days Included                     urgery/P ostoperative
       Carrier     (Surgery Only)                in the Global Fee        (1)     Percentage Allocation


                                                                                      N/ A (2)
                             Yes                                                      80/20
                             Yes                                                      N/A
                             Yes                         Varable                      Varable
                             Yes                         Varable                      70/30
                             Yes                                                      80/20
                             Yes                         Varable                      75/25
                             Yes                                                      80/20
                                                                                      N/A
                             Yes                         Varable                      70/30
                             Yes                                                      N/A.
                             Yes                                                       80/20

(1)	    With some carers, the alowance for postoperative days may depend on the surgical
        procedur code biled to the Medicare                 progr.
                                                      With those carers, the postoperative
        days var from one procedure to another.

(2)	     N/A" (not applicable) applies to those carers which either do not use a modifier (car­
        riers A and I) or make an adjustment after reviewing charges instead of using a percent­
        age alocation of the global fee (carers C and K).
                   APPENDIX VI



Text Of Comments        On   The Draft Report
.. ... _.......
            __            .:' -   .;:...   .- _ .._. : . : ..                               --   .-.- '-. .   -- -.. "                 - ----_..
                                                                                                                         - ..h... -_ :"u.
                                                                                                                                                     .--..- _.         . .___
               1"'_- ,,




                                                                                                                                                     14'\dllh '. J'V
                                  J)EPART,\EXT Uf IU.. lTH 6; Hl' \\A!' SEU\ ICES                                                                    r: .1I:,n\:"'\1   A,I"''''''       11 iI   ioU' \




                                                                                           3 92                                                                 p1ora
                                                                                                                                                          :":O'
                                                                                                                                            ""r 'L;- T'
                                                                                                                                      u r r...       . '. . '­            (N:f
            C.t&
                                           William 1.. Roper, MI. D.                                                                    1989 JAN                            9: S I
             Frorn                         Adinistrator
                                           OIa Draft Report: - Itinerat                  Surgery - OAI- 07-88- 00850
             Subject
                                           "'e Inspetor General
                                           Office of the Secretary


                                                We have reviewed the OIa                 drft inspetion
                                                                                           report which examned the
                                            extent to which
                                            impat of i tinerat
                                                                              rul
                                                                  hospitals utilize itinerat surgeons, the potential
                                                                 urgery on quali ty of cae, and the billini                                                              pratices
                                            of itinerat                   surgeons.
                                                                    i ty, we
                                                        In the interest of
                      are submit tine our comen ts to each
                                            reomendtion in an attahment.
                                                       Than you for 
           i ving us the opprtun                    to comnt on                     this          drft
                                            report.


                                            Attachment




                                                                                                                                                    RECEIVED

                                                                                                                                                        JAN 06 1988

                                                                                                                                                             OF.FICE OJ;

                                                                                                                                                    INSe.Ec:O.                      J;N.ERAV



                                                                                                                                                                                    "I,_ ,.ft­
,.   , = . -:- ' ;: ...
                     ..- .




                                                          Health Care Financing Administration
                                                                Comments on the 01 G Draft Report
                                                                        l t i nerant Surg
                                                                                  88- 00850

                       Recommendat ion 


                       Rural physicians and hospital administrators should develop and monitor
                       implementation of procedures to ensure adequacy of:

                                   preoperative workups;

                                   the patients . opportunity to seek a second opinion;

                                   postoperative plans of care; and

                                   postoperative communication between the attending physician

                                   and the itinerant surgeon.


                       HCFA Comments:

                       While this recommendation is not directed at the Peer Review Organization
                       (PRO) program, 'it should be noted that the PROs currently review-1o
                       ascertain that care delivered to Medicare beneficiaries in both urban and
                       rural settings meets acceptable standards. (This includes
                       preadmission/admission workups and discharge planning.    In addition , the
                       patient, like all Medicare beneficiaries, can  seek a second opinion under
                       Medicare s voluntary second opinion program.
                        Recommendation 2:
                        The HCFA should require th.t PROs review procedures performed by itinerant
                        surgeons to determine if the quality of patient care is affected because
                        preoperative or postoperative care is not provided by the itinerant
                        surgeon. Particular attention  should be paid to adverse outcomes related
                        to itinerant surgery.

                        HCF A   Conments:
                        We do not agree with the recommendation that HCFA require PROs to review

                        procedures performed by itinerant surgeons for the following reasons.


                                (1) We do       not. have sufficient
                                                               data to perform the ana lyses necessary
                                    to justify revising the 
 RO scope of work and implementing a new
                                    review procedure. While the OIG indicates that they identified a
                                    significant number of quality problems, we have no indication as
                                    to the severity and type of quality problem. PROs already review
                                    a significant percentage of hospital ad issions and intensify
                                    review where quality problems "are identified. Therefore, under
                                    the current PRO review process, any patterns of quality problems
                                    with a physician will be identified and resolved.
:.. . . '
. . . .-._   .... . -- . '- . .   . ",..
                                  .. -     . ...-.
                                                - ".   . . " ... ' h.
..". -
                                                         - - . -..   ... .     . _.. . .-   ;.   . -.   --.. ";. "      . .. : ' ;;. -
                                                                                                                     " ...               -.   . '#.-   - : - ....




                                    Page 2


                                           (2) " Itinerant"                  surgeons are not identified separ tely from
                                                       non- itinerant"               surgeons.
                                                                                            PROs would not have the means to
                                                       identify and focus on these surgeons. Therefore, ; t wou 1 d not                                                      be
                                                       feasible to implement this type                                      review.
                                   Recommendat ion 3:


                                   The HCFA should instruct Medicare carriers to recover overpayments from

                                   itinerant surgeons who billed a global fee but did not provide

                                    pos toper at i ve care.

                                   HCFA Conuents:


                                   We agree that overpayments shou                               1 d be recovered where payment was made for
                                   services that were not performed. Each affected carrier wi 11                                                                    be so
                                    instructed.
                                   Recommendation 4:
                                   The HCFA should instruct all carriers to require the use of procedure code
                                   modifier 54 to eliminate Medicare overpayments in cases where itinerant
                                   surgeons provi ded surgery on 1 y.
                                    HCFA Comments:

                                   We agree that the use of modifier 54 (Surgical Care Only) is i.mprtaftt in
                                   cases where itinerant surgeons provided surgery         Additionally, t                                               only.
                                   appropriate use of modifiers 52 (Reduced Services), 55 (Postoperative
                                   Management Only) and 56 (Preoperative Management Only) wi 11 alert carriers
                                   to situations requiring adjustments to a global allowance. We are
                                   reminding carriers of the use of all CPT- 4 modifiers as part of the 1989
                                    HCFA Commn Procedure                        Coding System update.
                                    Recommendat ion 5:


                                    The HCFA should develop guidelines regarding the percentage allocation of

                                    global fees for surgery and postoperative care. These guidelines would

                                    provide criteria for consistent claims adjudication, and should be

                                    disseminated nationwide.
                                    Recommendation 6:
                                    The HCFA should review the issue of limited postoperative care and
                                    consider whether policy should be established to deter ine a minimal                                                                    level
                                    of postoperative ' care which would justify payment of a global fee.
Page 3


HCFA Comments to Recommendations 5 and 


As part of our effort to develop a uniform definition of services, as

required by section 4055(a)(2) of the Omnibus Budget Reconciliation Act of

1987, we are considering establishing a uniform reduction in the global
charge where the surgeon does not perform the postoperat i ve care. We wi 11
consider the need for a minimum standard for postoperative care before a
global charge is recognized.

Genera 1 Comments:

The DIG provi des general percentages of " cases wi th poor qual i ty care,
 cases with adverse outcomes, " II cases where the adverse outcome was
aggravated by the itinerant surgery, " and " cases of elective surgeries
found to be contraindicated. 1I While they provide several examples to

demons trate poor qual i ty care, they do not present the report in a manner
which would permit us to fully analyze their       results.
                                                          For example, a case
can have an aqyerse outcome without poor quality care, so the point that
16. 3 percent of the cases had adverse outcomes is not meaningful.

The DIG also states that in 10 cases, the adverse outcome was lI aggravated
by the itinerant surgery.       However, the meaning of this statement is not
explained. It    would be very useful to have the quality problems further
defi ned by the actual type of prob 1 em and severi ty, i. e., how many were
documentati on problems; how many were unnecessary surgery; how many were

poor surgi ca 1 techn i ques; and what was the ' sever; ty 1 eve 1 of the qua 1; ty
prob 1 em.

  ..
- .   . --.. .                     -- -------..--...
                                          ",         -..-...
                                                           .-- ---   . . -- ,.. -           ..":"._----'.'
                                                                                               ..... \ - - -- ....--;- . h.__..
                                                                                                                                             . -. ... , .   -..           ....- .-...-..


                 . Amerin Hospital      Alloclatlon.­



       ll\
                                                                                                                           i::::'f
                    C, Sunh uk,' Shll'" i)riw           1;, .;;aU""nll.r. IC'h:rhll'h                                   s.   vor
                                                                                                                              u.,- I. .. .
                                                                                                                                                            i:1"(ip--'­
                                                                                                                                                              I.:. IU.
                  Chioa,n. minais 6O II
                    I"'rhlln,.. '1l. 1 f,111O
                    "II. AJJr u A.\lJi( )!I'                                                                               1999 J!lN     -3           M 11: S3



                   Dece ber 16, 1988                                                     RECEIVED;
                                                                                           JAN 061981

                   Richard P. Xusserow

                   Inspector Ceneral                                                         OFFCE OF

                   Office of Inspector Ceneral                                           INSPECTOR GENERAL

                   BaS North Building, Room 5250

                   330 Independence Avenue, S.
                   Washington, DC .20201
                   re:          Draft report on Itinerant Surgery lOAI-07-88- 00850

                   Dear Mr.        !tusserow
                   On behalf of its nearly 6, 000 institutional
   bers, the A erican Hospital

                   Association appreciates this opportunity to comment on the draft report,

                    Itinerant Surgery   "Which was prepared by the Inspector General' s Office of

                   Analysis and Inspections.
                   Ye bave reviewed the report carefully, and agree with the report
                   recommendation c lling for hospital internal procedures to ensure adequacy of
                   pre and post operative care and improved patient/ physician and
                   pbysiciau/ suraeon commnication. This recommendation is in concert wi th the
                   attached guidelines for the credentialing of outreach surgeons which were

                   recently developed and sent by the                                   AB to all
                                                                    ber hospitals. We also

                      port recommendations which would corr ct apparent disparities in the

                   billins rules established by fiscal intermediaries.


                  . Ve do DOt, hover,   support the recommndation whch calls for a separate or
                    distinct review of itinerant surgical                                 procedures. Itinerant
                                                                                 surgery should be
                    subject to review within tbe sa e parameters 8S any surgical procedure
                    performed within the local hospital.

                   Nor do we agree with the reco mendation calling for mandated second opinions

                   on itinerate surgery. The methodology used in cond tins the survey, which is
                   tde basis of the findings and these patticular recommendations, is seriously
                    flawed. Broad conclusions are inappropriately drawn from an extremely small
                   survey sa ple, and data from this study are inappropriately co pared to data
                   from an e&rlier unrelated study. Moreover, the study only focused on
                   pot.ntial adverse outcomes; there was no attempt to identify and report on
                    o.it1ve results which would have provided a balanced perspective.


                    Setting aside the .ethodplogical problems, the report generally presents a
                    balanced discussion of differing opinions of itinerant sursery by various
                    professional groups. Even here, however, the report lacks ajor contextual
                    elements. It does not address the frequency of this practice by rural
                    hospitals on either a nationwide or regional basis, which was one of the
                    stated objectives for the study. Nor does it address t e value of the
                    practice in terms of cost or in 
 eeting the psycho-social needs of an elderly,

, '




      less mobile rural population. Finally,  it does not discuss the impact on
      rural populations, communities, and hospitals if the practice were not
      available.
      The decision on whether to offer itinerant surgery as 

                                                             n alternative to

      out-of-area care is one that should be made by rural hospitals and their
      communities. If offered, it is important that hospitals ensure the quality of
      this servce, as  well as determine and apply appropriate criteria for
      credentialing the physicians and surgeons who provide the servce. It is
      important that hospitals and physicians receive clear instructions regarding
      physician billing modifications to reflect this practice.

      We hope these comments will provide a useful perspective. If you have any

      questions, please address them to 5yl Boeder (312/280-6442) in our Chicago

      office or to Milton Dezube (202/638- 2318) in our Washington Office.


      Snrcerely

            :e p. 



      Carol M. McCarthy t Ph. D. t J.





      cc: J ames Wolf
                 legional Inspector General

, .




                                             Commen t s
                                           Draft Report on

                                          Itinerant Surgery

                               by the   Office of Inspector General


                                 American Hospi tal  Association

                                           December 1988



      The American Hospital Association, on behalf of its nearly 6, 000 hospital

      members, welcomes this opportunity to submit comments on the HHS Office of

      Inspector General' s draft report on 
 Itinerant Surgery Comments are organized

      according to the subheadings that appear in the report.



                                             OBJECTIVES

      Our primary concern is related to the degree to which the stated objectives
      are actually addressed in the final report. We find no evidence that anv
      .ubstant                iafer88tiDn in the report addresses tne frequency of itinerant
      surgery in rural hospitals 
               ugnout the nation. Nor does the report

      indicate any variation in frequency of the practice from region to region

      which adght assist in identifying regional practice patterns and their impact

      on billing or payment    _challs...
      In assessing itinerant surgery, a more balanced perspective which also

      presents positive aspects of this pr.c 1ce \particular y in areas of the

      country where it is the only option because of distance or lack of local

      physicians) would be helpful. The extreme limitations of the small study

      sample also preclude .aking generalized statements of broad app!1Cabi!1

      regarding quality, billing practices, and the relationship between itinerant

      surgery and quality of care.



                                             IAC GROUN

      While the report presents - a balanced
                                           discussion of varying positions on
      appropriateness of itinerant 8urgery, it fails to address the impact on rural

      populations 8Dd hospitals if the practice vas not available. In correctly

      identifying sparse, rural populations as users of this servce, no info    tion
      was included 
    ding alternatives to itinerant surgery tbat might be

      avai able, at vhat d1stan e and cost. To many elde ly rural residents, the
      psycho-social aspects of receiving care close to hom and family weigh heavily
      in their choice to seek care locally.


      The discussion regarding sur ical coding procedure requirements indicates

      considerable variation in billing requirements by fiscal intermediaries.

      There is, however, no information       regardinuc
                                                       differences in codin
      requirements vhich would have affected tbe billing for the specific procedures

      reviewed in this report.

, '




                                            METHODOLOGY


      Given the universe of 1, 328 rural hospitals with fewer h8n 50 beds, the size
      of the random sample selected (72 hospitals) .seems unrealisticall3
                                                                          small in
      structuring a report which seeks to provide broad findings on the practice of
      itinerant surgery throughout the . country. The further narrowing of the sample
      through removal of those hospitals in which no itinerant surgery was performed

      has reduced an already small sample by over seventy-two percent, to a mere

      nineteen hospitals. It is necessary, therefore, to question the generalizing

      of findings Dased on such a narrow field of study.


       In January, 1988 , the American Hospital Association submitted a letter to the

       Regional Office of the Inspector General requesting clarification of the

       qualifications of individuals who would conduct the review of medical records,
        as well as the criteria and methodology which would be used to conduct the
        review. We find no indication in the draft report that reviewers were
      . familiar with small rural hospital operational capabilities, practitioner  hat the study
        arrangements or resource availability. Nor 40 we find evidence
        incorporates adequate consult' ation with physicians involved in the particular
        cases under consideration. This lack of evidence raises questions regarding
        findings based solely on charting and coding which may be inadequate,
                                                                            
           rather
        than on additional and substantive information as to the quality of care
        provided. A statement on page 5, " The scope of review did not include a
        review of patient visits, if any, to the surgeon s office after the hospital
        discharge " is indicative of the absence of additio al data which might affect
        the outcome of the survey For example, a lack of information on pre-o erative
        workup in the inpatient chart ..y be due to the fact that the patient was
        originally seen in an outpatient 8ettina, perhaps in the physicia
 8 office.
        The same could be true of post operati      DOtea, particularly if the procedure

        was done as same day or outpatient .urgery. In this instance, the physician

         could have clarified a circumstance which would not have been apparent from a

         review of written material.    Further8re, the     lack of communication between
      . reviewing physicians and the physicians wh      provided       the care --a standard
         element of peer review protocols-- lea e8 open the question of the degree to
       which .any of the 
   quality proble. cited were a fUDtion of inadequate
       charting or of inadequate care.


       The secondary methodology which involves tbe use of a separate study conducted
       for an entirely different purp08e (The ..tioaal DIG V.lidation Study) is a180
       a cause of concern. There 1s certainly question as to the comparability of
       findings based on a sample preselected for an entirely different 
purpQse. ID
       addition, the problem of small numbers again presents  itself, a  a u iverse of
         050 records is narrowed to thirty surgical cases deemed  comparable t those
       used in the itinerant surgery study. To e8tablish a comparative percentage of
       poor quali ty care determined by one case in thirty also brings into question
       the validity of using the National DiG V.l1dation Study Sample.



                                               FINDINGS

        SOME RURAL HOSPITALS    MA EXTENSIVE    USE OF ITINERAN SURGERY

        This statement, which opens the Findings section of the report (page         6), is
      .,-_. .: ::.
.., , '                                   ; ..- _. " -, . ".:   : -. . .. . "-- - ,.          ,.   '.                             , p.
                     ::"r_- :..w..                                             I .'0 '- J ­




          inappr                     r;        t.1y b:ad when                                           considered in light of the supporting   data. It
          should be clarified to indicate that while 28 percent of the hospitals in the

          survey sample reported the use of itinerant surgery, only seven hospitals (10

          percent) used it extensively. These seven hospitals account for 134 of the

          177 itinerant surgery procedures included in the data set.
                                                                


          MANY            RUR HOSPITALS
                                SEE ITINERANT SURGERY AS A COST-EFFECTIVE MEANS OF
                                                                                   RURL
           PROVIDING NEEDED SURGERY waICH MIGHT NOT OTHERWISE BE AVAILABLE IN SOHE 

                EAS

           The discussion which follows this statement ( FINDINGS     7) is supported by
           comments to the American Hospi tal Association by members of the
                                                                             AH I S Section
           for Small or Rural Hospitals.   However, any study of  rural health care options
           needs to be a sensitive to the unique aspects of the rural 
 environment,
           particularly in these regions of the United States where access to health care

           is affected by geography, weather or sparseness of the population. 

                                                                                  This
           sensitivity could be maintained by using reviewers who are familiar with

           practice patterns, resource and manpower constra1nts common in rural areas.

           The report should also address the issue in a manner that reflects the full

           context of rural health delivery.


                                 Vbat would be the impact on the quality of rural medicine if itinerant

                                     surgery' was not an option?
                                 What would be the impact on cost of care if patients could not be

                                 treated in the rural setting?


                                     Wht would  be the individual social and economic impact if rural
                                     patients, particularly the rural elderly, needed to be transferred to
                                     hospitals outside the local commnity?



            MEVETBELESS, THERE IS A                                                                HIGHR-THAVEGE RISK          OF POOR QUALITY   CA
            IT15E SURGERY
             This statement ( Findings ,                                                                p. 8) raises questions as to the validity of

             equati                         poor quality with the itinerant 

                                                                                                                           re of the surgery, especially

             81DCe the report statb. tbat no comparable data esists for a related

             ,opulation (i. e. surgical cases in small rural hospitals performed by local

             surgeons) to determine if itinerant surgery alone accounts for adverse

             outcomes ( Findings , p. 11).


             Tbe examples which are included cite instances of poor
quality' care.
                                                                                                                                                      Poor
             quality care is inappropriate and should not be defended. However, the report
             does a poor job of presenting the findings in a belanced fashion. For
             example, this discussion gives the impression, that there consistently was a
             higher than usual level of poor quality in hospitals using itinerant surgery,
             leaving buried in an appendix the fact that one-half of the 47 cases involving
             poor quality occurred in only 2 of the 19 studied 
            Furthermore it                                      providers.
             is unclear that the quality of care is a result of the itinerant nature of the
             practice. Poor quality care is unacceptable in any setting and should be
              addressed by each hospital through appropriate credentialing, quality
              assurance, and peer review. It is unfortunate, however, that on examples   of
                                                                                     thj s
              good quality care were cited in the report to give some perspective on
                     ssue.
                                         , (





OVERAL QUALITY OF CARE WAS SIGNIFICANTLY WORSE IN THESE CASES THAN IN A
RAND SAMPLE                    OF SURGICAL CASES IN    SMA RUR      HOSPITALS

We again maintain the inappropriateness of using an unrelated study as a basis
of comparison, and question the validity of such comparisons when small
numbers are translated into percentages (one case in thi ty . 3. 3%) and
compared under a nebulous heading such as Poor Quality Care or Good Quality
Care.
Qualifying statements are included within the text of the report, but are

ignored in making generalized statements of findings. Broad statements are

unsupported by the data which has been presented. Two examples follow:



        Although not directly attributed to itinerant suraery , poor quality of

       care occurred usually with the findings of no preoperative care, no post

       operative care, and/or an adverse outcome with the itinerant surgery cases

       in this inspection.    Findinas p. 12) (emphasis added)

        In summary, this comparison indicated that 
 itinerant suraery may result
       in poor quality of care delivered in hospitals that use itinerant
       surgeons. " Findings p. 13) (emph8sis added)


The section of the report dealing with findings about payment indicates the
need for uniform coding requirements whch are &Down to participating
physicians, an the need to address a lack of                      C08n
                                                     policy regarding post
operative days or a.ounts covered by a global fee.


                                                     UCOtHNDTIONS

The recommendatioDS seem on the whole quite                     seu.ible. If a hospital   chooses
to provide itinerant surgery                    a.   an option whch broadeaa chice   and meets the
needs of its cODstituents, that hospital has the responsibility to monitor the
quality of care of those servces --in this case, consistent and within the
.cope of policies which govern -the provision of all surgical servces within
the iD8titution. The Amrican Hospital Association fiDda the recommendations
regarding           iaple8ntation of
                            procedures to ensure adequacy of preoperative
vorkups, post operative care plans, and post o Rer                    ative
                                                        commnication between
the attending physician and the itinerant surgeon to be in concert with our
 Guidelines - Credentialing of Outreach Surgeons, " which were distributed to

all AH .-mbers earlier this year (see Attachment A).
The Hthodology PIOs will use- to review surgical procedures should be more
clearly defined, and should be governed by criteria which take into account

the appropriate standards of medical practice and operational capabilities of

, '




      rural hospitals of this size. The use of flawed methodology w thin this
      survey also invalidates conclusions that result in                              reco.ndations for a
      separate or distinct review of itinerant surgical procedures by PROs. These
      procedures should be reviewed within the same parameters as                             any   surgical
      procedures performed within the hospital. In addition, methodological flaws

      preclude any recommendation regarding second opinions.   hile patients should
      be made aware of such an option, it must be recognized that the option may not
      be locally available, particularly if the community needs to rely on itinerant
      surgeons. Patients who opt for local surgery may be unable to leave the
      community for a second opinion.


      In addressing post operative care,  it should be noted that complications are
      usually chronic medical conditions exacerbated by surgery and/ oranesthesia
      and are often more appropriately managed by internists, family practitioners

      or subspecialists. Surgeons usually restrict themselves to managing problems

      at the operative site.


      The recommendation to recover overpayments is appropriate and the

      recommendation to instruct carriers and participating physicians in the use of

        propriate coding should help di.pel confusion 8Dd wisinformation about

      billing procedures.



                                                                    CONCLUS ION


      The American Hospital Association is grateful for the opportunity to review
      and comment on this draft report. Ve take no 8ianficant i.sue with                                 its
      reco8mendation8; however, we wish to state our coaern with the over.tat.-nt.
      in the findings whch are based on 8 8ethodolo(J which extrapolates a very
      narrow sample into broad statements of findings.


      As evidenced by the development and issuance of our ow guidelines, the
      American Hospital Association and its members are        ed to ensuring the     c08it
      availability of high quality care in rural                              c08nities. If
                                                                  we can be of any
      further assistance, plea.e contact 5,1                             Ioer
                                                                      our ChicalO  (312/280-2) in
      office or Milton Dezube (202/638-2318) in our Vashiaaton Office.

, '                                                                                                                                             ::'




      AlIc      Ho            All.   li..                                                                                ATTACHMENT A


                                             Guidelines
                                             Credentialg of Outreach                                        Surgeons




                                             Thi6pidcline doment is inteded to          proide generl advice to   the membcip of the
                                              Amecan Hospital Assation.

      Intucon                                                                 blood use, emergency room rern visits,
                                                                              and trsfer   rates ar examples of clinical indica­
      For many ywar,      soet
                             in general and the health                        tors that might be included in the reiew of the
      ca  industry in particular hav ackowledged                              surgeon s practice patterns. .
      that the delivery of medica ca must lIee             the
      needs and desire of the 
 ommunity beng                                 The tys     of produres appropriate for out­
      while maintaining appropriate           stndars of care.                reac surgery should be deterined, with board
      In many rural areas eleaive surgcal          proun                      approal, by the medical stff and hospital
      are performed by surgeons who commute frm                               executive management. Considertion should be
                                                                                      to the degr of sophistication of the sup­
      more populated areas. They may delegate
      postopetive ca           and    selec   as
      preperative care to other physicians. Th pra
                                                                              port sece, anesthesia capabilties, and te­
                                                                              nolog available within the facility and the
      tice is often caled outrach swery. Whe done                             expuse and exrience of the sureon, the
      appropriately, it proides a valuable and some­                          anesetist, and the postopetive               ca givers.
      times necessary service that a community would
      not otherwise have.
                                                    Specific requirentS that relate to the outrach
                                                                              surgery, such as rensibility for case selection
      This  doctstoffersto gudace
      their medl
                                  ro hospitas and
                           asst th in proor
                                                                              identication of         attdig
                                                                                                        physicians for
                                                                              poopetive maagement, roqtine and emer­
      hi-qua     medca an suca ca that                                        gecy orders, scpe of priviege, trnsfer pro
      be proided by outrach            SUns.                                  tool, etc., should be defined in the medca Stff
                                                                               rules and reations. The surgeon                rensibil­
      Guidelines                                                               ties ro the medca Stff organizrion, such as
                                                                               panc:pation on medical stff            committs,
      Outreach sueons should be crentialed in the                              shouJd be proportonal to the amount of surcal
      same manner as all other meca Staff members.                             actvity performed by the surgeon at the
      The  ianuon      OD
                              ve,
                                     th aplic
                                    an
                                            fo                                 intution.
      appontmt     should  be             th   shou                                                                   be included in the
      be evaluated for reappoinnnent at leas evry                              The outrac: surgeon should

      ywars. The clinical privileges granted to them
                                                                               preperative asssment            pro       and should be
                                                                               instrmental in the decsion ro operate. The sur­
                                 prvi pa
      Should corrlate with their redency traing
      an should no exce               me                                        gen should pancipare in the deteraton of
      them at their primary institutions. Privieges                             the prepertive testng needed for the patient,
      should be evaluated at lest           evry tw   ywars and
                                                                              . and the rets of all testing should be available
      should reflect an assessment of the practtioner                          for reiew by the surgeon prior to surger. The
      experise and abilty. Morbidity and mortlity                              patient should be fully informed of, understand,
      stdies, comparison of preperative and                                    and appro the conditions under which the
                                                                               produre wil be performed and the postopera.
      postoperative diagnoses, rehospitaliztion rare,

                                                                               tive   ca proided.
       .The   pidelines do nOl conRirum an AH    po       on our­
      reac su   eon.. The)'          Io  by rhe Am Hosi.                       The attding    physician responsible for post­
       ta Assoation    Divilion of Medca AffaiR ro assist membe                operative care should be able to treat routine
          pitals with ourrach surger proams ro esablish insrru­                postoperative complications and be experienced
       rional protool on crdenrialing and quality assurance. The                in distinguishing which medical and surgcal


       Surgeons.
       AH." reognizes that The praaice of outreac surgry is con.
       rroial and is, in fa, oppm by the America CoU. of


       This docment was dewloped at the request of the Amerca
                                                                                 omplications require transfer. This ph)' sician


                                                                                intmded to aslist hospitals and their medical staffs in the
       Hospital Assiation s SeCtion for Small or Rura Hostals                   crenrialing and subseuent aSWSlment of care pl''ided by
       and has be appro       , thaT seon s gowinl counc,                       outrac sUl'fts. This docment was appro             by the AHA
       th AHA Commincc on Hospital Medical Stafs. and the                       Boar of TruStee on August     " 1'88.
       AHA Institutional Pracices Commincc. The guidelines are
                                                      a.." "'__ L   I _ L-   L_- n...- ""L.   .._-- III
, '





       should be identified when the produre is             taken when warranted. The action may be a res­
       scheduled and should be available for the dura­      triction of pri\'ileges or  vocation of staff
       tion of the hospital stay.
                          appointment. Regardle!ls of the action taken , the
                                                            fair he.uin pro'edur       outlined in the medical
       Explicit postoperative orders as well as operative   stff b)'laws   must be followed.
       rens    should be completed by the surgeon
       before leaving, and the surgeon should be avail­     Conclusion
       able by phone to consult on difficulties if the
       need arises. A mechanism for transferring            A hospital offeris:g outreach surgery is responsi­
       patients whose condition appears to require          ble for assuring that high quality i!l provided by
       resources not available at the hospital should be    outreach surgeons. Implementation of these
       in place and well understood by the hospital         guidelines, as a whole, wil help to promote
       staff.                                               high-quality outreach surgery. Credentialing and
                                                            appropriate limits on clinical privileges, scrutiny
       The entire proces-assesment of preoperative          to determine what types of surgery are appropri­
       judgment, intraoperative skil, and postoperative     ate for an institution s outreach surgery program,
       management-should be included in the hospi­          and dearly-defined and well understood
       ta' s quality assurance program, and the findings    preperative and postoperative      produres and

       should be evaluated along with other faaors at
      requirements are all essential to assuring high-
       the time of reappointment and privilege reiew.       quality outrach surgery services.
       An adverse findings should be evaluated by the
       medcal staff, and appropriate aaion should be
.'                                        q"
     1'


               AMERICAN ACADEMY OF FAMILY PHYSICIANS
                ...0 WARO                PARKWAV               KANSAS CITV. MISSOURI 64114-2797
                O'''C' O' ,.. ",...,..,

                JAMeS O. JONIS,
                .'M".'..' O' '..,	  " .'.'CI...
                        i!::. :;Vi
                .c..oo  O' .,.'C''''                        erriCE   r !!::;::. :: CS-'UL

                880." .....

                ..." CA'O '"'' UN''''''''''

                ......".u., NO.,. CA'O
   '"'' ''''', .u.      1988 DEC   28 /, H S' 22
 December 23, 1988

 Mr. Richard P. Kusserow,	                                                 RECE\VED
 Inspector General
 Washington, DC 20201
                                 erow:
 Department    Health & Human Services
                            ot
                                                                              JAN 06\989
                                                                                OffICE OF. R)t:
 Dear                                                                       \NSPECTOR GENE

 The American Academy of Family Physicians qreatly appreciates
 the opportunity to review and comment on y r office I s draft
 report on "Itinerant Surqery"     Known as "Outreach Surgery"
 to the Academy, it has been an issue hat has received a
 considerable amount of attention and resources from the
 Academy in recent years. Included in Attachment A are a
 definition and policy of " outreach surgery" as approved by
 the Academy I s Congress of Delegates in 1987.

 Academy staff has carefully reviewed your report and concurs
 that the results raise concerns regarding the qual i ty of
 outreach surgery that require turther analysis and
 appropriate action. The Academy questions the   extent of the
 quality. problem in outreach surgery as reported in your study
 for the f9llowing reasons:
              (1)	 the small number of outreach surgical cases
                         reviewed;
              (2)	 the absence of a control group;
              (3 )	      the absence of criteria upon which medical judgments
                         regard     adequacy" and " appropriateness" were
                         determined, and;

              (4)	 the qualifications of the reviewers and whether they
                         were true peers of those being                    reviewed.
     In the absence of an appropriate control, it is difficult to

     ascertain whether the large number of adverse outcomes are

     directly related to "itinerant surgery" or other physician,
     hospital or patient factors. This deficiency in the study

     requires additional stEdy to validate the                                results.
     The Academy' s policy on peer review states, in part, that
      clinical policies.n   patient care shoul d be established by
     practicing physicians and based upon needs appropriate . to the
     local area. Local circumstances and considerations such as
 :.




Letter to Mr. Kusserow

Page Two

December 23, 1988





those frequently found in inner city or rural areas may

modify final interpretations as to whether or not a standard

of care. is met.  The qualifications of the reviewers and the

selection of criteria upon which the medical judqments are

made should be made explicit in describing the peer review

process.
In spite of these deficiencies in the study design, it i$

unlikely that all adverse outcomes are unrelated to
deficiencies in the outreach surgery process.  Protocols to
assure quality care and optimal outcomes when outreach

surgery is performed should be instituted in all hospitals
where these services are performed.
To that end, the Academy has encouraged and worked closely
with the American Hospital Association to develop guidelines
for "Credentialing of Outreach Surgeons" (see Attachment B).
The guidel ines address, and in some cases exceed, the
recommendations contained in your report to establish
institutional protocols on credentialing and quality
assurance for outreach surgery. The Academy actively
supports implementation of these guidelines which address
credentialing and clinical privileges, selection of outreach
surgical cases, and pre and postoperative protocols to assure
high quality outreach surgery services.
The Academy also agrees with and supports the need to clarify
proper coding, by all physicians involved, when outreach
surgery is performed. Uniform application of the "54"
modifier by all carriers and education of physicians
regarding its proper use should be encouraged by HCFA.
 I', oJ t




     Letter to Dr. Kusserow

     Page Three
     December 23 , 1988




     Again, thank you for the opportunity to comment on this

     important report while still in its draft form. The

     appropriate body within the Academy structure is meeting in

     mid-January and it will further discuss the _ draft report.

     Any additional comments/suggestions will be forwarded to you

--   at the conclusion of that meeting. The Academy would welcome
     the opportunity to work with the appropriate individuals from
     your office in further studyinq the issue or designing
     programs to assure ongoinq access to high quality outreach
     surgery for Medicare beneficiaries.
     Sincerely,




     JAS!RG: dab

     At     tac.ents
.. . \!'.,.

              I.,.
                       '%                        '%   ..-           j:                                   "'''




                     102


                 SUBSTANCE ABOSE (Continued)
                       Treat.ent Proarams (Continued1
                                (b)

                                impaired physician
                                                       le to   th

                                                                     practices.

                                                                                         prc of the st in whi the
                       proqrams providing treatment                               should:

                                (a) Be duly licensed, and


                                                                                   af   th st   physi             and/or
                                psy faciti st
                                (b) Mee 


                                the Joi CC\",.c.c. cn en Aa:itation ' of Heathcae Orcanizations for
                                                       (in     withou impaiec physicias programs).
                     (1987)

                SURGERY

                       2fce- Based
                       '!e AA is m favor of surger peormed in the phys;r-;JI,, s offi or eter
                                                                                              ri                .icr
                       aprtJ:
                       da
                       th 

                            su         be
                       services. (1982)

                                                 w:
                                               wen the paent'
                                                 0J



                                                  !h    *",';,;r,.
                                                        m: 


                                                   fo OIem          re
                                                                     wID net be
                                                                      er thes cimstce,
                                                                   as wel as for profesioal  a:
                                 r.ach - Definition



                       pcc:
                                             r-n Aaem r1 Fay
                                               pc-cve ca                 I'sisdefines cuch suer as surger
                                              by a qu JI' H' ied physic:sueo wher the
                       -1-+""
                                            pi
                       ph et phys .i ct the pa' physic.aner
                                                    of   th         c4ile au af th      ar proided by
                                                                                                s fmWY
                                                                                                      and
                                                                                                                   (1987)
                       Outreach - PolicY


                       'I AA          th
                                   '-U nay.
                                                 nc
                                                aAaa smet to          --s  to heath
                                                          caen       ca   reer
                                                                                        t. c:at
                                                                           af                      as

                       ca fe                                      of
                       cuch surger,  famy physis proide hin qualty preoperative and
                                            ru



                              l.v ca c=is with thei
                                                                          As an



                                                             an exce The AAFP
                             the prac: of cuc: sue: when             by a te of the
                       pss   fay phys an a physSJeo, wi aprorite
                       of pa ca .bewee te mes durinq each phase of surgical care
                                                                         ccmmat
                       (pre-operative, intra-operative and post-operative). (1987)
